No. 19-1355
IN THE SUPREME COURT
OF THE UNITED STATES

BETZAIDA P JERNIGAN
Petitioner (Pro Se)
v.

ROBERT WILKIE, SECRETARY OF
VETERANS AFFAIRS
Respondent

CERTIFICATE OF SERVICE
I, Betzaida P Jemigan, do
swear or declare that on this date,
October 20, 2020, as required by the
Supreme Court Rule 29 I have served
the PETITION FOR A REHEARING
(in good faith and without delay) on
each party to the above proceeding or
that party’s counsel and on every
other person required to be served, by
depositing an envelope containing the
above

documents

in the

United

States mail properly addressed to

each of them and with first-class
postage prepaid, or by delivery to a
third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of
those served are as follows: Robert
Schneider Office of General Counsel
(027S) and Catherine C. Mitrano,
Mary Ann, Flynn, Catherine A.
Chase, Deborah A. Pride (attorneys
for Appellee; The Secretary of the
Department of Veteran's Affairs) to
the following address:

Office of General Counsel
(027 Records)
U.S Department of Veterans Affairs
810 Vermont Avenue, N.W.
Washington, D. C. 20420
\

Julie Honan and Y. Ken Lee
U.S. Department of Veterans Affairs,
Office General Counsel (022)
810 Vermont Ave., N.W. Washington,
D.C. 20420
And,
Solicitor General of the United States
Room 5616 Department of Justice

950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
I declare under penalty of
perjury that the foregoing is true and
correct.
Executed on October 2(L 2020.
Betzaida P Jernigan/Rro Se)
471 E Kicklighter Rd
Lake Helen, FI 32744
(757)513-1941
Email: bpjok2@gmail.com

